BOYDEN GRAY & ASSOCIATES PLLC
801 17TH STREET, NW, SUITE 350
WASHINGTON, DC 20006
(202) 955-0620

October 11, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Byrd v. Lamb, No. 21-184

Dear Mr. Harris:
I recently appeared as counsel of record for Respondent in the
above-captioned matter. The petition for a writ of certiorari in this case
was docketed on August 10, 2021. On September 27, 2021, the Court
called for a response, due October 27, 2021.
Due to the press of other business and the need to familiarize myself
with this new case, I respectfully request a 34-day extension of time
within which to file a response to the petition, to and including November
30, 2021. Respondent has not previously sought any extensions in this
matter. Petitioner consents to the requested extension.
Respectfully,
/S/ R. TRENT MCCOTTER
BOYDEN GRAY & ASSOCIATES PLLC
801 17th Street NW, Suite 350
Washington, DC 20006
202-706-5488
mccotter@boydengrayassociates.com
cc:

All Counsel

